\
(
IN THE SUPREME COURT OF THE UNITED STATES
DECEMBER 2020 TERM
JOSHUA G. RICHARDSON, petitioner
v.
UNITED STATES OF AMERICA, respondent
AFFIDAVIT OF MAILING

I, Joshua G. Richardson, do hearby declare under penalty of perjury, that:
1. On December

2020, I caused to be mailed to this Court the enclosed "Petiton for Writ of Certiorari."

2. This mailing was accomplished by sending said documents via USPS through the prison mail system, addressed
to the Clerk of the Unitet^States Supreme Court, One First Street NE, Washington, D.C. 20543

hua G. Richardson, (pro-se)

receded

mxrm

IN THE SUPREME COURT OF THE UNITED STATES
Joshua Richardson,
petitioner
v.
United States of America,
respondent
PROOF OF SERVICE
I, Joshua Richardson do hereby certify that pursuant to the provisions of Rule 29.4(a) of this court, I have
served the
within PETITION FOR WRIT OF CERTIORARI to the clerk, addressed in the manner: United States
Supreme Court, One 1st street N.W.,
Washington D.C. 20530-001" on December
, 2020.
DATED: December
2020
Joshua Richardson #77089-061
FCI Elkton
PO Box 10
Lisbon, Ohio 44432

v.

it

